                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 13-01673-240




    Combined Assessment Program 

            Review of the 

     Tuscaloosa VA Medical Center 

         Tuscaloosa, Alabama 





July 11, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                                    CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Tuscaloosa VA Medical Center
                 FPPE           Focused Professional Practice Evaluation
                 FY             fiscal year
                 HPC            hospice and palliative care
                 MEC            Medical Executive Committee
                 MH             mental health
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 PCCT           Palliative Care Consult Team
                 QM             quality management
                 RME            reusable medical equipment
                 SPS            Sterile Processing Service
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                               CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Reported Accomplishments......................................................................................                   2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 5

  Medication Management – CS Inspections ............................................................. 8

  Coordination of Care – HPC ................................................................................... 9

  Nurse Staffing ......................................................................................................... 11

  Construction Safety................................................................................................. 12


Appendixes
  A. Facility Profile ....................................................................................................      14

  B. VHA Patient Satisfaction Survey .......................................................................                    15

  C. VISN Director Comments ..................................................................................                  16

  D. Facility Director Comments ...............................................................................                 17

  E. OIG Contact and Staff Acknowledgments .........................................................                            21

  F. Report Distribution .............................................................................................          22

  G. Endnotes ...........................................................................................................       23





VA OIG Office of Healthcare Inspections
                                    CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
May 20, 2013.

Review Results: The review covered six activities. We made no recommendations
in the following two activities:

   Medication Management – Controlled Substances Inspections

   Nurse Staffing

The facility’s reported accomplishments were the geriatric suicide screening tool and the
Green House® Project.

Recommendations: We made recommendations in the following four activities:
Quality Management: Ensure that Focused Professional Practice Evaluations for newly
hired licensed independent practitioners are reported timely to the Medical Executive
Committee.

Environment of Care: Ensure that inpatient bathrooms are clean and that damaged
furniture in patient care areas is repaired or removed from service. Secure mental
health inpatient unit nurses’ stations and medication rooms from unauthorized access,
and ensure furniture meets safety requirements. Require that Sterile Processing
Service employees responsible for reprocessing activities receive annual competency
assessments.

Coordination of Care – Hospice and Palliative Care: Ensure that the Palliative Care
Consult Team includes a dedicated administrative support person.

Construction Safety: Ensure that the multidisciplinary committee responsible for
construction and renovation oversight includes all required members and that
construction site inspection documentation includes all the required elements.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 16–20, for the full




VA OIG Office of Healthcare Inspections                                                          i
                                    CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL


text of the Directors’ comments.) We consider recommendations 5–8 closed. We will
follow up on the planned actions for the open recommendations until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          ii
                                    CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, conversed with managers and employees, and reviewed
clinical and administrative records. The review covered the following six activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   Nurse Staffing

   	   Construction Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through
May 20, 2013, and was done in accordance with OIG standard operating procedures for
CAP reviews. We also asked the facility to provide the status on the recommendations
we made in our previous CAP report (Combined Assessment Program Review of the
Tuscaloosa VA Medical Center, Tuscaloosa, Alabama, Report No. 10-00050-247,
September 15, 2010).

During this review, we presented crime awareness briefings for 106 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.


VA OIG Office of Healthcare Inspections                                                         1
                                    CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL


Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
138 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Geriatric Suicide Screening Tool
The 2012 Consolidated Assistance Review and Evaluation results indicated that
screening veterans for suicide on admission was not included in the Geriatrics and
Extended Care Services admission process. While many veterans in CLCs are verbal
and able to communicate suicidal ideation, others are non-verbal; therefore, a tool was
needed that would better identify risks for this population regardless of whether they
were able to verbalize or not. A team comprised of the Suicide Prevention Coordinator,
a neuro-psychiatrist, a psychologist, a QM registered nurse, and the Chief of Social
Work Service was formed to research the best indicators for veterans who communicate
non-verbally. The team was unable to find a suicide screening tool specific to
non-verbal veterans but found and reviewed research articles that provided non-verbal
indications for depression. The team added these signals as part of the suicide
screening tool now used for all admissions to the CLC. Any positive screenings are
referred to providers for further evaluation.

The Green House® Project
The Magnolia House is the second Green House® within the VA system to open its
doors. It is a caring home operating under the Green House® Project model for inpatient
long-term care. The Magnolia House is a self-contained home designed to look and
feel like a real home. It houses 10 veterans who have met the criteria for admission to
long-term care, and each veteran has a private bedroom and bathroom. Specially
trained “universal workers,” who provide a wide range of assistance, staff the home and
provide personal care, activities, meal preparation and service, light housekeeping, and
laundry service. At the facility, these “universal workers” are referred to as Guardians.
Guardians underwent an extensive training program and function as a self-managed
work team partnered with the clinical support team for the veterans who live in the
home. 




VA OIG Office of Healthcare Inspections                                                         2
                                            CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The area marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                   Areas Reviewed                                        Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected peer
       review process were reported to the Peer
       Review Committee.
 X     FPPEs for newly hired licensed independent        Nine profiles reviewed:
       practitioners complied with selected               Of the nine FPPEs completed, results of five
       requirements.                                        were not reported timely to the MEC.
 NA    Local policy for the use of observation beds
       complied with selected requirements.
 NA    Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 NA    Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
       The cardiopulmonary resuscitation review
       policy and processes complied with
       requirements for reviews of episodes of care
       where resuscitation was attempted.
       There was an EHR quality review committee,
       and the review process complied with
       selected requirements.




VA OIG Office of Healthcare Inspections                                                                   3
                                            CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL


 NC             Areas Reviewed (continued)                                 Findings
       The EHR copy and paste function was
       monitored.
       Appropriate quality control processes were in
       place for non-VA care documents, and the
       documents were scanned into EHRs.
 NA    Use and review of blood/transfusions
       complied with selected requirements.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

1. We recommended that processes be strengthened to ensure that FPPEs for newly hired
licensed independent practitioners are reported timely to the MEC.




VA OIG Office of Healthcare Inspections                                                                 4
                                           CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

We inspected five CLCs; two MH inpatient units; a primary care, a dental, and a podiatry clinic;
and SPS. Additionally, we reviewed relevant documents, conversed with key employees and
managers, and reviewed all SPS employee training and competency files. The table below
shows the areas reviewed for this topic. The areas marked as NC needed improvement. Any
items that did not apply to this facility are marked NA.

 NC           Areas Reviewed for General EOC                              Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
 X     Environmental safety requirements were met.      Inpatient bathrooms in 4 of 10 patient care
                                                         areas inspected were not clean.
                                                        We found damaged furniture in 2 of the
                                                         10 patient care areas inspected.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
 X     The facility complied with any additional       VA National Center for Patient Safety MH EOC
       elements required by VHA, local policy, or      Checklist requirements reviewed. On the two
       other regulatory standards.                     acute MH inpatient units:
                                                        Nurses’ stations and medication rooms were
                                                         not secured from unauthorized entry.
                                                        Furniture was not secured or heavy enough
                                                         to prevent it from being used to cause injury
                                                         or moved to block a door.




VA OIG Office of Healthcare Inspections                                                                  5
                                             CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL


             Areas Reviewed for Hemodialysis
 NA    The facility had policy detailing the cleaning
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.
 NA    Monthly biological water and dialysate testing
       were conducted and included required
       components, and identified problems were
       corrected.
 NA    Employees received training on bloodborne
       pathogens.
 NA    Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
 NA    Selected EOC/infection prevention/safety
       requirements were met.
 NA    The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
 NA    The facility had policies/procedures/guidelines
       for immediate use (flash) sterilization and
       monitored it.
 X     Employees received required RME training            Annual competency assessments were not
       and competency assessment.                           documented for two SPS employees.
 NA    Operating room employees who performed
       immediate use (flash) sterilization received
       training and competency assessment.
       RME standard operating procedures were
       consistent with manufacturers’ instructions,
       procedures were located where reprocessing
       occurs, and sterilization was performed as
       required.
       Selected infection prevention/environmental
       safety requirements were met.
       Selected requirements for SPS
       decontamination and sterile storage areas
       were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                  6
                                          CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL



Recommendations

2. We recommended that processes be strengthened to ensure that inpatient bathrooms are
clean and that compliance be monitored.

3. We recommended that processes be strengthened to ensure that damaged furniture in
patient care areas is repaired or removed from service.

4. We recommended that processes on the acute MH inpatient units be strengthened to
ensure that nurses’ stations and medication rooms are secured from unauthorized entry and
that furniture meets safety requirements.

5. We recommended that processes be strengthened to ensure that SPS employees
responsible for reprocessing activities receive annual competency assessments.




VA OIG Office of Healthcare Inspections                                                               7
                                           CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of all CS Coordinators and 10 CS inspectors and inspection documentation from
10 CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The
table below shows the areas reviewed for this topic. Any items that did not apply to this facility
are marked NA. The facility generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                     Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
       Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
       CS inspectors were appointed in writing,
       completed required certification and training,
       and were free from conflicts of interest.
       Non-pharmacy areas with CS were inspected
       in accordance with VHA requirements, and
       inspections included all required elements.
       Pharmacy CS inspections were conducted in
       accordance with VHA requirements and
       included all required elements.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                8
                                            CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 25 employee training records (10 HPC staff records and 15 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic. The area marked as NC needed improvement. Any items that did not
apply to this facility are marked NA.

 NC                    Areas Reviewed                                         Findings
  X    A PCCT was in place and had the dedicated         List of staff assigned to the PCCT reviewed:
       staff required.                                    An administrative support person had not
                                                             been dedicated to the PCCT.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
       HPC staff and selected non-HPC staff had
       end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.




VA OIG Office of Healthcare Inspections                                                                 9
                                           CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL


 NC            Areas Reviewed (continued)                                 Findings
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

6. We recommended that processes be strengthened to ensure that the PCCT includes a
dedicated administrative support person.




VA OIG Office of Healthcare Inspections                                                               10
                                            CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on two inpatient units
(long-term care and MH).5

We reviewed relevant documents and 22 training files, and we conversed with key employees.
Additionally, we reviewed the actual nursing hours per patient day for Patriots’ Point (CLC unit)
and acute MH unit 1 for 52 randomly selected days (holidays, weekdays, and weekend days)
between October 1, 2012, and March 31, 2013. The table below shows the areas reviewed for
this topic. Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

 NC                    Areas Reviewed                                      Findings
       The facility completed the required steps to
       develop a nurse staffing methodology by the
       deadline.
       The unit-based expert panels followed the
       required processes and included all required
       members.
       The facility expert panel followed the required
       processes and included all required members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                11
                                             CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL


Construction Safety
The purpose of this review was to determine whether the facility maintained infection control and
safety precautions during construction and renovation activities in accordance with applicable
standards.6

We inspected the primary care upgrade project. Additionally, we reviewed relevant documents
and 20 training records (10 contractor records and 10 employee records), and we conversed
with key employees and managers. The table below shows the areas reviewed for this topic.
The areas marked as NC needed improvement. Any items that did not apply to this facility are
marked NA.

 NC                    Areas Reviewed                                          Findings
  X    There was a multidisciplinary committee to          The facility’s multidisciplinary committee did
       oversee infection control and safety                 not include all required members.
       precautions during construction and
       renovation activities and a policy outlining the
       responsibilities of the committee, and the
       committee included all required members.
       Infection control, preconstruction, interim life
       safety, and contractor tuberculosis risk
       assessments were conducted prior to project
       initiation.
       There was documentation of results of
       contractor tuberculosis skin testing and of
       follow-up on any positive results.
       There was a policy addressing Interim Life
       Safety Measures, and required Interim Life
       Safety Measures were documented.
 X     Site inspections were conducted by the             Site inspection documentation for 2 quarters
       required multidisciplinary team members at         reviewed:
       the specified frequency and included all            Site inspection documentation did not include
       required elements.                                    all required elements.
       Infection Control Committee minutes
       documented infection surveillance activities
       associated with the project(s) and any
       interventions.
       Construction Safety Committee minutes
       documented any unsafe conditions found
       during inspections and any follow-up actions
       and tracked actions to completion.
       Contractors and designated employees
       received required training.
       Dust control requirements were met.
       Fire and life safety requirements were met.
       Hazardous chemicals requirements were met.
       Storage and security requirements were met.




VA OIG Office of Healthcare Inspections                                                                      12
                                           CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL


 NC            Areas Reviewed (continued)                                 Findings
       The facility complied with any additional
       elements required by VHA or local policy or
       other regulatory standards.

Recommendations

7. We recommended that the facility ensure the multidisciplinary committee responsible for
construction and renovation oversight includes all required members.

8. We recommended that processes be strengthened to ensure that construction site
inspection documentation includes all the required elements.




VA OIG Office of Healthcare Inspections                                                               13
                                            CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL
                                                                                              Appendix A

              Facility Profile (Tuscaloosa/679) FY 2013 through
                                  March 2013a
Type of Organization                                                              Secondary
Complexity Level                                                                  3
Affiliated/Non-Affiliated                                                         Affiliated
Total Medical Care Budget in Millions                                             $133.8
Number (through April 2013) of:
    Unique Patients                                                              13,884
    Outpatient Visits                                                            118,139
    Unique Employeesb                                                            765
Type and Number of Operating Beds:
    Hospital                                                                     87
    CLC                                                                          198
    MH                                                                           84
Average Daily Census:
    Hospital                                                                     73
    CLC                                                                          90
    MH                                                                           72
Number of Community Based Outpatient Clinics                                      0
Location(s)/Station Number(s)                                                     NA
VISN Number                                                                       7




a
    All data is for FY 2013 through March 2013 except where noted.
b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                                14
                                      CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL
                                                                                        Appendix B

                        VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient and outpatient satisfaction scores for FY 2012.

Table 1

                  Inpatient Scores                           Outpatient Scores
                      FY 2012                                    FY 2012
              Inpatient       Inpatient      Outpatient   Outpatient     Outpatient      Outpatient
              Score           Score          Score        Score          Score Quarter   Score
              Quarters 1–2    Quarters 3–4   Quarter 1    Quarter 2      3               Quarter 4
Facility        *             *               54.0        58.7           59.0            64.9
VISN            63.3          65.9            51.8        51.3           50.6            51.1
VHA             63.9          65.0            55.0        54.7           54.3            55.0
 * The facility does not have acute inpatient beds.




VA OIG Office of Healthcare Inspections                                                               15
                                    CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL
                                                                                      Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


       Date:           June 25, 2013

       From:           Director, VA Southeast Network (10N7)

       Subject:        CAP Review of the Tuscaloosa VA Medical Center,
                       Tuscaloosa, AL

       To:             Director, Dallas Office of Healthcare Inspections (54DA)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       I concur with the recommendations and approve of the action plans as
       outlined by the Tuscaloosa VA Medical Center.




VA OIG Office of Healthcare Inspections                                                        16
                                       CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL
                                                                                         Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                      Memorandum


       Date:           June 13, 2013

       From:           Director, Tuscaloosa VA Medical Center (679/00)

       Subject:        CAP Review of the Tuscaloosa VA Medical Center,
                       Tuscaloosa, AL

       To:             Director, VA Southeast Network (10N7)

       1. I concur with the recommendations presented in the Combined
       Assessment Program Review of the Tuscaloosa VA Medical Center.

       2. Attached are the facility actions taken as a result of these findings.

       3. Thank you for these opportunities for improvement. The OIG Team
       conducted the audit in a very professional and consultative manner which
       made the site visit productive and educational for our staff.

       4. If you have additional questions or need further information, please
       contact me at (205) 554-2000, ext. 2201.


               (original signed by:)
       Maria R. Andrews, MS, FACHE 

       Director, Tuscaloosa VA Medical Center (679/00) 





VA OIG Office of Healthcare Inspections                                                           17
                                    CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
FPPEs for newly hired licensed independent practitioners are reported timely to the
MEC.

Concur

Target date for completion: 6/1/13

Facility response: FPPE Tracker for LIP New Hires spreadsheet has been developed
with headings for “FPPE Initiated, FPPE Completed and FPPE Reported to MEC/PSB”
for tracking for Medical Executive Committee. New Hires LIP – Initial FPPE memo and
successful completion memo have been scanned and quality controlled into VetPro
under LIP Personal Profile Section. Appointment Screen under “Comments” will have
leading comment added: NOTE: Successful Completion of FPPE on “X-date.”
Comments section will be saved with no other additions or deletions.

Recommendation 2. We recommended that processes be strengthened to ensure that
inpatient bathrooms are clean and that compliance be monitored.

Concur

Target date for completion: 7/1/13, On-going

Facility response: EMS will assign a Floor Care Tech team to do detailed cleaning of
each bathroom floor on each unit daily until all have been corrected. Over the next
90 days contract services will begin grout repair, sealing the floors, and caulking around
the toilets. In addition EMS will develop PD’s and submit PMC requests for floor care
technicians that will largely focus on maintaining floors through non-destructive cleaning
practices using approved methods and products. EMS will establish an annual budget
for grout maintenance and repair.

Recommendation 3. We recommended that processes be strengthened to ensure that
damaged furniture in patient care areas is repaired or removed from service.

Concur

Target date for completion: 7/1/13

Facility response: Damaged items will be reupholstered and/or repaired.




VA OIG Office of Healthcare Inspections                                                        18
                                    CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL


Recommendation 4. We recommended that processes on the acute MH inpatient
units be strengthened to ensure that nurses’ stations and medication rooms are secured
from unauthorized entry and that furniture meets safety requirements.

Concur

Target date for completion: 10/1/13

Facility response: Short term actions are complete, including removal of items from the
desk surface, surveillance of the desk surface hourly, replacement of phone cords to
shorter cords, a VA Police officer in Building 137 from 1500–0700 hrs, meeting with staff
members to assess and support their perception of safety concerns and recommended
unit changes, removal of torn furniture and easily lifted chairs, placement of a duress
alarm in anteroom of G3-116, and assigning a nursing staff member to observe and
assist the nurse assigned during the medication pass have been completed.
Intermediate and long term items are pending with a target date of 7/31/13.
Construction items are pending funding from VISN and have a target date of the end of
FY 13.

Recommendation 5. We recommended that processes be strengthened to ensure that
SPS employees responsible for reprocessing activities receive annual competency
assessments.

Concur

Target date for completion: 6/1/13

Facility response: Competency binders have been updated and will continue to be
maintained and updated to ensure that SPS employees responsible for reprocessing
activities have received annual competency assessments.

Recommendation 6. We recommended that processes be strengthened to ensure that
the PCCT includes a dedicated administrative support person.

Concur

Target date for completion: 6/1/13

Facility response: An administrative support position has been filled.

Recommendation 7. We recommended that the facility ensure the multidisciplinary
committee responsible for construction and renovation oversight includes all required
members.

Concur

Target date for completion: 6/1/13




VA OIG Office of Healthcare Inspections                                                        19
                                    CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL


Facility response: Center Memorandum 001-21, Safety Program, Chapter 15,
Construction Safety, is being updated to include Employee Health representative.

Recommendation 8. We recommended that processes be strengthened to ensure that
construction site inspection documentation includes all the required elements.

Concur

Target date for completion: 5/22/13

Facility response: The Construction Safety Site Inspection form has been updated to
include time and attendance.




VA OIG Office of Healthcare Inspections                                                        20
                                    CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Gayle Karamanos, MS, PA-C, Team Leader
Contributors            Rose Griggs, MSW, LCSW
                        Gilbert Humes
                        Cathleen King, MHA, CRRN
                        Trina Rollins, MS, PA-C
                        Larry Ross, MS
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Misti Kincaid, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        21
                                    CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL
                                                                                       Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Southeast Network (10N7)
Director, Tuscaloosa VA Medical Center (679/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Jeff Sessions, Richard C. Shelby
U.S. House of Representatives: Terri A. Sewell


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        22
                                               CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL
                                                                                                 Appendix G

                                                    Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
2
  References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
   Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
   Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
   September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
   January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
   Safety and Health Administration, the National Fire Protection Association, the American National Standards
   Institute, the Association for the Advancement of Medical Instrumentation, the International Association of
   Healthcare Central Service Material Management, and the Association for Professionals in Infection Control and
   Epidemiology.
3
  References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
   Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
  References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
   Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.
5
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.



VA OIG Office of Healthcare Inspections                                                                       23
                                               CAP Review of the Tuscaloosa VA Medical Center, Tuscaloosa, AL



6
    References used for this topic included:
	 VHA Directive 2011-036, Safety and Health During Construction, September 22, 2011.
	 VA Office of Construction and Facilities Management, Master Construction Specifications, Div. 1, “Special
    Sections,” Div. 01 00 00, “General Requirements,” Sec. 1.5, “Fire Safety.”
	 Various Centers for Disease Control and Prevention recommendations and guidelines, Joint Commission
    standards, and Occupational Safety and Health Administration (OSHA) regulations.




VA OIG Office of Healthcare Inspections                                                                        24
